App. 1
S.D.N.Y. – N.Y.C.
19-cv-6823
Daniels, J.
United States Court of Appeals
FOR THE

SECOND CIRCUIT
-----------------------------------------------------------------------

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 10th day of March, two
thousand twenty-one.
Present:
Robert D. Sack,
Richard C. Wesley,
Steven J. Menashi,
Circuit Judges.
Scott Solomon,
Plaintiff-Appellant,
v.

20-3878
American Federation of State,
County and Municipal Employ- (Filed Mar. 10, 2021)
ees, District Council 37,
AFLCIO,
Defendant-Appellee.
Appellee moves for summary affirmance Upon due
consideration, it is hereby ORDERED that Appellee’s

App. 2
motion is GRANTED. This Court has determined that
summary affirmance is appropriate because the issue
on appeal was squarely resolved against the Appellant
by this Court’s decision in Wholean v. CSEA SEIU Local 2001, 955 F.3d 332 (2d Cir. 2020).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 3
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------x
:
SCOTT SOLOMON,
:
Plaintiff,
:
-against:
ORDER
AMERICAN FEDERATION :
OF STATE, COUNTY AND : 19 Civ. 6823 (GBD)
MUNICIPAL EMPLOYEES, : (Filed Oct. 13, 2021)
:
DISTRICT COUNCIL 37,
:
AFL-CIO,
Defendant. :
:
------------------------------------------x
GEORGE B. DANIELS, United States District Judge:
On May 26, 2020, Defendant moved to dismiss
Plaintiff ’s complaint pursuant to Federal Rule of Civil
Procedure 12(b)(1) for lack of subject matter jurisdiction and Rule 12(b)(6) for failure to state a claim. (Notice of Mot. to Dismiss, ECF No. 23.) In his response to
Defendant’s motion, Plaintiff concedes that the recent
decision by the United States Court of Appeals for the
Second Circuit in Wholean v. CSEA SEIU Local 2001,
955 F.3d 332 (2d Cir. 2020), forecloses the relief sought
by Plaintiff in the above-captioned action. (See Resp. to
Mot. to Dismiss, ECF No. 25, at 2.) Accordingly, Plaintiff acknowledges that Wholean requires this Court to
grant Defendant’s motion to dismiss. (Id. at 3.) Defendant’s motion to dismiss, (ECF No. 23), is GRANTED.

App. 4
The Clerk of Court is directed to close this motion
accordingly.
The conference scheduled for October 21, 2020 at
9:45 am is canceled.
Dated: New York, New York
October 13, 2020
SO ORDERED.
/s/ George B. Daniels
GEORGE B. DANIELS
United States District Judge

App. 5
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------X
SCOTT SOLOMON,
Plaintiff,
-against-

19 CIVIL 6823 (GBD)

AMERICAN FEDERATION
OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES,
DISTRICT COUNCIL 37,
AFL-CIO,

JUDGMENT
(Filed Oct. 14, 2021)

Defendant.
------------------------------------------X
It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons stated in the Court’s Order dated October 13, 2020, Defendant’s motion to
dismiss, (ECF No. 23), is granted.
Dated: New York, New York
October 14, 2020
/s/

BY: /s/

RUBY J. KRAJICK
Clerk of Court
David J. Thomas
Deputy Clerk

App. 6
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
SCOTT SOLOMON,
Plaintiff,
v.
AMERICAN FEDERATION
OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES,
DISTRICT COUNCIL 37,
AFL-CIO,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

No.
COMPLAINT
(CLASS ACTION)
(Filed Jul. 23, 2019)

COMPLAINT
1. The U.S. Supreme Court has concluded that
unions acted unconstitutionally when they deducted
tens of millions of dollars from public-sector employees
who were not members of a union, but were required
to pay agency fees to the union against their will. See
Janus v. AFSCME, 138 S. Ct. 2448 (2018). Plaintiff, individually and on behalf of a class of all agency feepayers as a class whose money was taken by American
Federation of State, County and Municipal Employees,
District Council 37, AFL-CIO, (“District Council 37”),
sues for the return of their wrongfully-seized money
under 42 U.S.C. § 1983.

App. 7
PARTIES
2. Plaintiff Scott Solomon served as a city planner in the Queens office of the New York City Department of City Planning from October 2014 to July 2018
and resides in Ronkonkoma, New York.
3. District Council 37 is a labor union representing public sector employees across New York City. Its
main offices in New York City, New York.
JURISDICTION AND VENUE
4. This case raises claims under the First and
Fourteenth Amendments of the United State Constitution and 42 U.S.C. § 1983. The Court has subject-matter jurisdiction under 28 U.S.C. § 1331 and 28 U.S.C.
§ 1343.
5. Venue is appropriate under 28 U.S.C. § 1391(b)
because District Council 37 has its headquarters in
and a substantial portion of the events giving rise to
the claims occurred in the Southern District of New
York.
FACTUAL ALLEGATIONS
6. The New York Public Employees’ Fair Employment Act mandates that a union certified as an exclusive representative “shall be entitled to have deducted
from the wage or salary of employees of such negotiating unit who are not members of said employee organization the amount equivalent to the dues levied
by such employee organization . . . ” NY Civ Serv. L

App. 8
§ 208(b) (2016). Exclusive representatives are entitled
to these fees, and public employers are required to
withhold them and transmit them to the union. See
Re Onondaga-Cortland-Madison BOCES Federation
of Teachers, NYSUT, AFT #2897, 1992 PERB No. U12308, at 7-8.
7. District Council 37 is the exclusive representative for classified employees of the mayoral agencies,
the Health and Hospitals Corporation, the Off-Track
Betting Corporation, the City Housing Authority, the
Comptroller, the District Attorneys, the Borough Presidents, the Public Administrators, and any museum, library, zoological garden, or other cultural institution
whose salary is paid in whole from the City Treasury,
as recognized by the collective bargaining agreement
between District Council 37 and the City of New York.
8. The collective bargaining agreement between
District Council 37 and the City of New York initially
covered January 1, 1995 to June 30, 2001, but continues in force to today with supplemental Memoranda of
Agreement, the most recent of which was signed June
25, 2018.
9. Prior to June 28, 2018, all employees in the
bargaining units represented by District Council 37
who were not union members, including the Plaintiff,
were forced to pay “fair-share fees” to District Council
37 as a condition of their employment.
10. Prior to June 28, 2018, municipal employers
covered by the collective bargaining agreement deducted fair share fees from Plaintiff ’s and other

App. 9
nonmembers wages without their consent and, upon
information and belief, transferred those funds to District Council 37, which collected those funds.
11. During times after June 1, 2016, District
Council 37 should have known that its seizure of fair
share fees from non-consenting employees likely violated the First Amendment.
CLASS ACTION ALLEGATIONS
12. This case is brought as a class action under
Federal Rule of Civil Procedure 23(b)(3) by Plaintiff for
himself and for all others similarly situated. The class
consists of all current and former New York City employees from whom District Council 37 collected fair
share fees pursuant to its collective bargaining agreement with the City of New York within the applicable
statute of limitations.
13. Upon information and belief, the number of
persons in the class is so numerous that joinder is impractical.
14. There are questions of law and fact common
to all class members, including Plaintiff. The constitutional violations perpetrated by District Council 37
against all nonmembers were taken according to the
same statutes and collective bargaining agreement.
The legal question of whether District Council 37 owes
damages to class members from whom it unconstitutionally seized fair share fees is common to all class
members.

App. 10
15. Plaintiff ’s claim is typical of class members’
members claims because all concern whether District
Council 37 owes damages to class members from whom
it unconstitutionally seized fair share fees.
16. Plaintiff will adequately represent the class
and has no conflict with other class members.
17. The class can be maintained under Federal
Rule of Civil Procedure 23(b)(3) because questions of
law or fact common to the members of the class predominate over any questions affecting only individual
members, in that the important and controlling questions of law or fact are common to all class members,
i.e., whether the aforementioned fee deductions violate
their First Amendment rights. A class action is superior to other available methods for the fair and efficient
adjudication of the controversy, inasmuch as the individual respective class members are deprived of the
same rights by District Council 37’s actions, differing
only in the amount of money deducted. This fact is
known to District Council 37 and easily calculated
from its business records. The limited amount of
money involved in the class of each individual’s claim
would make it burdensome for the respective class
members to maintain separate actions.
CAUSE OF ACTION
18. The allegations contained in all preceding
paragraphs are incorporated herein by reference.

App. 11
19. District Council 37 acted under color of state
law and in concert with the City of New York when it
compelled Plaintiff and class members to pay fair
share fees, caused the government to deduct fair share
fees from the Plaintiff and class members, and collected fair share fees seized from the Plaintiff and class
members.
20. District Council 37, by requiring the payment of fair share fees as a condition of employment
and by collecting such fees, violated Plaintiff ’s and
class members’ First Amendment rights to free speech
and association, as secured against state infringement
by the Fourteenth Amendment to the United States
Constitution and 42 U.S.C. § 1983.
PRAYER FOR RELIEF
Plaintiff respectfully requests that this Court:
a.

Certify the Class; and

b. Enter a judgment declaring that District Council 37 violated Plaintiff ’s and class members’ constitutional rights by compelling them to pay fair share fees
as a condition of their employment and by collecting
fair-share fees from them without consent; and
c. Award Plaintiff and class members actual
damages in the full amount of fair share fees and assessments seized from their wages, plus interest, for
violations of their First Amendment Rights;

App. 12
d. Award the Plaintiff his costs and attorneys’
fees under 42 U.S.C. § 1988; and
e. Award any further relief to which Plaintiff
may be entitled.
Dated: July 22, 2019
Respectfully Submitted,
SCOTT SOLOMON
By: /s/ Jeffrey Schwab
Jeffrey M. Schwab (pro
hac vice motion file simultaneous to this complaint)
Daniel R. Suhr (pro hac
vice motion file simultaneous to this complaint)
Liberty Justice Center
190 South LaSalle Street,
Suite 1500
Chicago, Illinois 60603
Telephone (312) 263-7668
Facsimile (312) 263-7702
jschwab@
libertyjusticecenter.org
dsuhr@
libertyjusticecenter.org
Attorneys for Plaintiffs

William Messenger (pro
hac vice motion forthcoming)
National Right to Work
Legal Defense Foundation
8001 Braddock Rd.,
Suite 600
Springfield, VA 22160
703.321.8510
703.321.9319 (fax)
wlm@nrtw.org

